<html>
<title> - LAST LINE OF DEFENSE: THE FEDERAL AIR MARSHAL SERVICE 10 YEARS AFTER 9/11</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






LAST LINE OF DEFENSE: THE FEDERAL AIR MARSHAL SERVICE 10 YEARS AFTER 
                            9/11

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 16, 2012

                               __________

                           Serial No. 112-69

                               __________

       Printed for the use of the Committee on Homeland Security


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-515 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     Mike Rogers, Alabama, Chairman
Daniel E. Lungren, California        Sheila Jackson Lee, Texas
Tim Walberg, Michigan                Danny K. Davis, Illinois
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois, Vice Chair      Cedric L. Richmond, Louisiana
Mo Brooks, Alabama                   Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                     Amanda Parikh, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
                   Vacant, Minority Subcommittee Lead

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Transportation 
  Security.......................................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Transportation Security........................................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................    21

                               Witnesses

Mr. Robert S. Bray, Assistant Administrator for Law Enforcement, 
  Director, Federal Air Marshal Service, Transportation Security 
  Administration; Accompanied by Michael Novak, Assistant 
  Administrator, Training and Workforce Engagement, 
  Transportation Security Administration, and Roderick J. 
  Allison, Deputy Assistant Administrator for Law Enforcement, 
  Deputy Director, Federal Air Marshal Service, Transportation 
  Security Administration:
  Oral Statement.................................................     4
  Joint Prepared Statement.......................................     6
Mr. Charles K. Edwards, Acting Inspector General, Office of the 
  Inspector General, Department of Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10

 
LAST LINE OF DEFENSE: THE FEDERAL AIR MARSHAL SERVICE 10 YEARS AFTER 
                                 9/11

                              ----------                              


                      Thursday, February 16, 2012

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:27 p.m., in 
Room 311, Cannon House Office Building, Hon. Mike Rogers 
[Chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Cravaack, Turner, Jackson 
Lee, and Richmond.
    Mr. Rogers. The committee on Homeland Security Subcommittee 
on Transportation Security will come to order. This 
subcommittee meeting is today to discuss the important work of 
the Federal Air Marshal Service. I want to thank every one of 
our witnesses for being here today and the time and commitment 
it took for you to prepare your remarks, and the inconvenience 
of making time for one of these hearings. I can tell you what 
you have to offer helps us a lot as policymakers. So we 
appreciate your time and effort.
    As a senior Member of this committee since its creation, 
and in leadership of three unique subcommittees, I have focused 
my energy on ensuring that we do not just address the past, but 
that we are adequately equipped to respond to the threats of 
today and tomorrow. We all know that the outcome of one of the 
darkest days in our Nation's history could have been very 
different if we had Federal Air Marshals on those planes. But 
the reality is the terrorists have adapted to our security 
measures and changed their tactics. We saw this on Christmas 
day in 2009 and in other attempted attacks since 9/11.
    The threat of an IED being detonated aboard an aircraft is 
very real. With an annual budget approaching $1 billion, we 
need to ask the question of whether today's Federal Air 
Marshall Service is capable of preventing current and future 
terrorist threats? What new efficiencies can be gained to 
reduce the cost of the program?
    In the aftermath of 9/11, the Federal Air Marshal Service, 
or FAMS, evolved into the primary law enforcement entity within 
TSA deploying air marshals on countless domestic and 
international flights everyday. TSA has undergone many changes 
since its formation after 9/11, but FAMS has largely maintained 
its autonomy throughout the years. Both its annual budget and 
its day-to-day operations and training are separate from the 
rest of TSA.
    Recently Administrator Pistole announced sweeping changes 
to TSA's internal organization and structure, which included 
the Federal Air Marshals Service. I want to ensure that this 
reorganization does not set the air marshals back in any way 
particularly with respect to training operations or adding 
unnecessary layers of bureaucracy.
    While I can understand TSA's desire to restructure itself 
amidst all the criticism it gets, it should not make these 
types of decision in haste. The ultimate goal should be to 
provide security while reducing the cost to the taxpayer in a 
tight economy. So if reorganizations such as this do not lead 
to any cost saving, it is difficult to see the logic behind it 
or to support it.
    From what we have been told, TSA's reorganization will not 
result in any tangible cost savings. I would urge the witnesses 
today and other officials at TSA and DHS to look at this 
committee as a partner in your efforts. The sooner we are 
informed of the changes you plan to make, the better. Today I 
look forward to hearing directly the leadership of Federal Air 
Marshal Service about these recent reorganizational changes, 
how air marshalls are adapting to the constantly revolving 
threats we face from terrorists and ways we can reduce the 
burden on taxpayers.
    With that I now recognize the Ranking Member of the 
subcommittee, the gentlelady from Texas, Ms. Jackson Lee for 5 
minutes for her opening statement.
    Ms. Jackson Lee. Good afternoon. Thank you very much, Mr. 
Chairman. I would like to thank the witnesses for being here 
today to discuss the Federal Air Marshals Service. I would also 
like to thank Chairman Rogers who knew of my interest and my 
request for this hearing for holding this important and timely 
hearing, and to take a closer look at the Federal Air Marshal 
program and discuss the recent findings in a report released 
last week by the Department of Homeland Security inspector 
general.
    The Aviation Transportation Security Act of 2002 designated 
the Federal Air Marshal Service as a law enforcement 
organization within the Transportation Security Administration. 
Prior to September 11, the Federal Air Marshals comprised a 
workforce of 33 sky marshals. After 9/11, it became clear that 
a 33-person unit would not be sufficient to protect the 
American flying public from a new threat. The idea of Federal 
Air Marshals, I believe, is again, as I have said often in this 
committee, part of the front line of defense of the American 
homeland. Our FAMS were vastly expanded to address when our 
abilities exposed on 9/11. The Federal Air Marshal serves as 
the last line of defense for thousands of passengers on flights 
both domestic and international.
    While FAMS police our skies and protect passengers, we must 
wonder what happens when they leave the airport and return to 
the office. In the last 3 years, we have learned about a 
hostile work environment epitomized by the use of a crude game 
to demean FAMS who are women, minority group members, or gays.
    Today the inspector general will testify that 47 percent of 
the survey responders fear retaliation if they speak out about 
workplace conditions. Today, we will hear from the leadership 
of FAMS about the plan to correct the workforce issues that 
have long plagued this organization.
    We will also hear from the inspector general about the 
recommendations he has made to remedy the issues at FAMS. 
Compounding my concern about the inspector general's report is 
the fact that the workforce challenges at FAMS are not new. In 
2005, the GAO released a report recommended that FAMS developed 
a communication strategy to change, to share expectations, and 
report related progress within its workforce.
    In 2009, the GAO released another report recommending that 
the director of FAMS take appropriate actions to increase of 
the usefulness the workforce satisfaction surveys. Today we 
will receive testimony from the IG recommending that the 
director of FAMS provide increased transparency and forms of 
communication across the organization, particularly between 
rank-and-file FAMS and management. It seems that every 
examination of FAMS, whether by GAO or the inspector general, 
finds a workplace that needs improved transparency, increased 
communication, and opportunities for upward mobility. Knowing 
some of the FAMS myself and seeing them at work, I know that 
they are however dedicated and committed to serving the 
American people. We must allow everyone to serve in dignity as 
a FAM on behalf of the American people.
    It is also clear that every examination since 2005 has 
yielded a promise from FAMS management that practices would 
improve and conditions would change. It appears that those 
promises have not been kept. They do not want to hear about new 
promises. Today I want to learn how FAMS leadership will keep 
its commitment to those Federal Air Marshals who risk their 
lives everyday to protect the flying public.
    I frankly, in conclusion, would like to see FAMS increased 
and introduce H.R. 71 which would increase the number of 
Federal Air Marshals for certain flights, require criminal 
investigative training for such marshals, create an office and 
employment ombudsman for marshals, and for other purposes.
    I am committed to the excellence of FAMS, I want to see the 
leadership and the team working together, but as well, working 
together with a diverse force, if you will, that can work 
harmoniously on behalf of the American people. I look forward 
to hearing from Director Bray on what actions he intends to 
take to direct workforce challenges once and for all. With that 
Mr. Chairman, thank you so very much and I yield back.
    Mr. Rogers. I thank the gentlelady and other Members of the 
committee are reminded their opening statements can be 
submitted for the record. We are pleased to have several 
distinguished witnesses before us today on this important 
topic. Let me remind the witnesses that their entire statements 
will appear in the record and you will be given 5 minutes to 
summarize it, so we can get to the Q&A.
    First witness is Mr. Robert Bray, he currently serves as 
the assistant administrator for law enforcement and the 
director for the Federal Air Marshal Service, TSA. Mr. Bray 
began his career with FAMS in 2003 as an assistant special 
agent in charge of the mission operation center at the FAA, 
technical center in Atlantic City, New Jersey. Mr. Bray is 
joined by two of his TSA colleagues, Mr. Michael Novak who 
currently serves as the assistant administrator for training 
for workforce engagement, and Mr. Roderick Allison who 
currently serves as a deputy assistant administrator for law 
enforcement.
    Mr. Bray will be offering an opening statement on behalf of 
himself, Mr. Novak, and Mr. Allison. He is now recognized for 5 
minutes.

 STATEMENT OF ROBERT S. BRAY, ASSISTANT ADMINISTRATOR FOR LAW 
      ENFORCEMENT, DIRECTOR, FEDERAL AIR MARSHAL SERVICE, 
TRANSPORTATION SECURITY ADMINISTRATION; ACCOMPANIED BY MICHAEL 
    NOVAK, ASSISTANT ADMINISTRATOR, TRAINING AND WORKFORCE 
    ENGAGEMENT, TRANSPORTATION SECURITY ADMINISTRATION, AND 
  RODERICK J. ALLISON, DEPUTY ASSISTANT ADMINISTRATOR FOR LAW 
  ENFORCEMENT, DEPUTY DIRECTOR, FEDERAL AIR MARSHAL SERVICE, 
             TRANSPORTATION SECURITY ADMINISTRATION

    Mr. Bray. Good afternoon and thank you, Chairman Rogers, 
Ranking Member Jackson Lee, and distinguished Members of the 
subcommittee. Thank you for the opportunity to testify today 
about the Transportation Security Administration's office of 
law enforcement, Federal Air Marshal Service, and our mission 
to detect and deter terrorist threats to the Nation's 
transportation systems. With me today is former FAMS Deputy 
Director Mike Novak, who is now TSA's assistant administrator 
for the Office of Training and Workforce Engagement. Mr. Novak 
was a former assistant director of training for the FAMS.
    In addition, I also want to introduce Mr. Roderick Allison, 
who was recently named as the deputy director of FAMS and has 
most recently served as our assistant deputy director for 
flight operations.
    I would also like to introduce Joe Samuels and Mel Caraway, 
they are respectively, the new supervisory air marshals in 
charge of the Orlando and Dallas office.
    Mr. Rogers. Welcome.
    Mr. Bray. Before 9/11, the FAA employed just 33 air 
marshals who flew primarily international missions. Following 
the passage of the Aviation and Transportation Security Act, 
FAMS was officially transferred to TSA. Today Federal Air 
Marshals are the primary law enforcement entity within TSA and 
are deployed on flights with the United States and around the 
world, and Federal Air Marshals make great personal and 
professional sacrifices every day in the performance of their 
vital mission to our Nation.
    Transformation within the Department of Homeland Security 
led to a period in which the FAMS transition to the U.S. 
Immigration and Customs Enforcement Agency, ICE, before 
returning to TSA in 2005. Today OLE/FAMS serves DHS in a 
variety of critical roles. We operate the Freedom Center, which 
contains the transportation security operation center also 
known as the TSOC, as well the 
K-9 training program.
    Within TSA's office of security operations, we administer 
the visible intermodal prevention and response program, which 
is also known as VIPR, which is aimed at enhancing transit 
security.
    Additionally, we manage the personnel security clearance 
process for TSA, and conduct both joint vulnerability 
assessments for airports as well as man portable air defense 
systems, or MANPADS assessments. Ten years after 9/11, our 
mission is no longer separate from TSA's other transportation 
security missions.
    Today our responsibilities make us a key component of TSA's 
transportation security counterterrorism strategy. As you know, 
TSA is currently implementing an agency-wide transformation 
initiative. The plan reflects a fully integrated FAMS realigned 
and operational divisions that support and enhance the TSA law 
enforcement mission. This new structure will enable TSA to more 
efficiently and effectively execute its day-to-day National 
security mission imperatives, establish a meaningful and 
realistic strategic vision for its law enforcement programs and 
maintain the flexibility needed to address evolving and 
emerging threats to the Nation's transportation systems.
    A highly trained workforce is essential to the success of 
TSA. Transitioning the FAMS training center and other FAMS 
training programs to the newly established office of training 
and workforce engagement under Mike Novak is an important step 
toward reaching that goal.
    FAMS training will remain an independent division under the 
Office of Training and Workforce Engagement continuing to serve 
our specific mission needs while TSA benefits from the 
professional experience of former FAMS executives like Mike 
Novak.
    Law enforcement is our essential function and this 
transformation will enhance FAMS' ability to focus on what it 
does best, providing TSA with an agile responsive and 
professional law enforcement component that compliments the 
overall TSA mission.
    FAMS will streamline from five divisions to three: We will 
have the flight operations division; the security services and 
assessment division; and the field operations division. 
Remaining functions from the former administrative and 
technical services and training and workforce programs 
directorates will transfer to the appropriate TSA division, and 
some supporting elements will transfer to the FAMS business 
office.
    This model supports a field-centric approach allowing 
branch managers and staff to focus solely on the needs and 
management of the local field offices.
    This approach also provides the ability to consider field 
office consolidation issues within our concept of operations. 
This alignment will also contribute to correcting some issues 
noted in the report by the Office of Inspector General. The OIG 
investigated allegations of misconduct and illegal 
discrimination and retaliation in the FAMS, and the report 
found those allegations to be unfounded. The OIG did find, 
however, that the FAMS suffered from a lack of management 
cohesion, negative workforce perceptions, and a lack of 
compliance with headquarters' direction in the matters of 
office operations and philosophy. Changing this management 
structure and reinvigorating the office of field operations 
addresses some of the OIG's concerns by creating a foundation 
for a real, positive, cultural change to our workforce.
    We welcome the OIG review, and will continue working 
closely with them going forward. We realize there is work to be 
done as we continue to mature and advance our organization. We 
look forward to working with Congress and the OIG to ensure the 
agency's continuing improvement. Additionally, as the OIG 
report noted, these challenges have not and will not interfere 
with the mission of the FAMS. Chairman Rogers, Ranking Member 
Jackson Lee, we thank you for the opportunity to appear before 
you today, and look forward to answering your questions.
    [The joint prepared statement of Mr. Bray, Mr. Novak, and 
Mr. Allison follows:]
Joint Prepared Statement of Robert S. Bray, Michael Novak, and Roderick 
                               J. Allison
                           February 16, 2012
    Good afternoon Chairman Rogers, Ranking Member Jackson Lee, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to testify today about the Transportation Security 
Administration (TSA)--Office of Law Enforcement/Federal Air Marshal 
Service (OLE/FAMS) and how the changes we are implementing will help us 
achieve our mission to detect, deter, and defeat terrorist threats to 
the Nation's transportation systems while streamlining our operations.
    I would like to take this opportunity to introduce the former 
Deputy Director of the FAMS, who is now TSA's new Assistant 
Administrator, Mr. Mike Novak of the Office of Training and Workforce 
Engagement (TWE). Mr. Novak was also a former Assistant Director of 
Training for the FAMS at TSA. In addition, I would like to introduce 
Mr. Roderick Allison, who was recently named as the new Deputy Director 
of OLE/FAMS and who most recently served as our former Assistant 
Director for Flight Operations.
    The FAMS was officially transferred from the Federal Aviation 
Administration to TSA by the Aviation and Transportation Security Act. 
Over a 4-year period, the FAMS transitioned from TSA to the Department 
of Homeland Security's (DHS's) U.S. Immigration and Customs Enforcement 
component, and then back to TSA. It has been about 6 years since our 
reintegration with TSA. Today, Federal Air Marshals (FAMs) serve as the 
primary law enforcement officers within TSA and are deployed on both 
international and domestic flights. Last year, TSA signed 23 
international agreements with foreign partners, including nine 
agreements permitting the deployment of FAMs on flights between the 
United States and the respective countries and 14 agreements on 
technical assistance and information sharing. Also of note in 2011, the 
Military Operations Research Society selected a University of Southern 
California (one of the DHS Science and Technology Directorate (S&T) 
Centers of Excellence partners) collaborative project with S&T and FAMS 
on randomizing Federal Air Marshals (FAMs) flight schedules for the 
prestigious Rist Award, the first non-Department of Defense winner in 
history.
    Today, OLE/FAMS serves DHS in a variety of critical roles. We are 
responsible for operating the Freedom Center, which contains the 
Transportation Security Operations Center (TSOC), the operational 
communications nexus for all of TSA, and the National Explosives 
Detection Canine Training Program (NEDCTP). We also manage the 
personnel security clearance process for TSA and conduct both Joint 
Vulnerability Assessments for airports as well as Man Portable Air 
Defense System (MANPADS) Vulnerability Assessments.
    In addition to our aviation security responsibilities, in 
conjunction with the Office of Security Operations, we administer the 
Visible Intermodal Prevention and Response Program (VIPR), which is 
aimed at enhancing the intermodal security response of our State and 
local transit partners. TSA has 25 multi-modal VIPR Teams working in 
transportation sectors across the country to prevent or disrupt 
potential terrorist planning activities, and the TSA appropriation for 
fiscal year 2012 includes funds for an additional 12 new VIPR Teams.
    Ten years after 9/11, our mission is no longer separate from TSA's 
other transportation security missions. Today, our responsibilities 
make us a key component of TSA's transportation security 
counterterrorism strategy.
    As you may know, TSA has recently undertaken an agency-wide 
transformation initiative. The OLE/FAMS part of the TSA transformation 
focuses specifically on transportation law enforcement services across 
TSA. The transformation plan has created a fully integrated OLE/FAMS, 
realigned into three operational divisions that support and enhance the 
TSA law enforcement mission. Under the plan some portion of non-mission 
elements such as financial and administrative services as well as 
technology management are transitioning to appropriate centralized TSA 
entities. This proposed structure will enable TSA to more efficiently 
and effectively execute its day-to-day National security mission 
imperatives, establish a meaningful and realistic strategic vision for 
its law enforcement programs, and be flexible to address evolving 
threats to the Nation's transportation systems.
    In order to achieve this vision, it's crucial that TSA has a well-
trained and highly motivated workforce. Transitioning the FAMS Training 
Center and other FAMS training programs to the TWE and leveraging the 
expertise of the men and women who train our FAMs are important steps 
towards that goal.
    Throughout this transition, we will continue to sustain the high 
level of FAMS training currently underway. FAMS training will remain an 
independent division under TWE, continuing to serve our mission needs, 
while TSA will benefit from the professional experience of former FAMS 
executives like Mr. Novak.
                           ole/fams structure
    Law enforcement is our essential function. The OLE/FAMS 
transformation will enhance FAMS's ability to focus on what it does 
best--providing TSA with an agile, responsive, and dependable law 
enforcement component that complements the overall TSA mission. OLE/
FAMS will streamline from five directorates to three divisions: The 
Flight Operations Division, the Security Services and Assessments 
Division (SSA), and the Field Operations Division (FLD). Remaining 
functions from the former Administrative and Technical Services and 
Training and Workforce Programs directorates will transfer to the 
appropriate TSA division and some supporting elements will transfer to 
the Business Management Office.
Flight Operations Division
    The Flight Operations alignment will remain largely unchanged from 
its original function. It will maintain the management of FAMS daily 
deployment, 24/7 incident management, TSA's emergency preparedness 
functions, the Federal Flight Deck Officer program and other associated 
programs. Training functions relating to those programs will migrate to 
TWE while the TSOC and FAMS Systems Operational Control functions will 
continue as part of Flight Operations.
Security Services and Assessments Division
    SSA's structure will also remain similar to the present 
composition, including the NEDCTP, MANPADS mitigation, airport 
vulnerability assessments, and physical security. However, some 
section-level functions will be transformed to permit greater attention 
to emerging mission areas. These include responsibility for TSA's 
Insider Threat Section. The Insider Threat Section will enable TSA to 
better identify and mitigate risks posed by individuals with inside 
knowledge or access to the transportation system.
Field Operations Division
    The FLD will align under four branches, three responsible for the 
oversight of a roughly equal number of Field Supervisory Air Marshals 
in Charge (SACs) and organized based on location. The fourth branch 
will manage all other field-related law enforcement programs, including 
those which will realign to OLE/FAMS from other TSA components. I am 
encouraged that this structure will enable us to better serve the men 
and women in the 25 field offices who protect us every day.
    In particular, the Law Enforcement Programs Branch will contain 
three sections--VIPR/Joint Coordination Center, Tactical Support, and 
Law Enforcement Information Coordination. The new Tactical Support 
Section is composed of operational elements which sustain Field Office 
operational functions.
    The Critical Incident Response Program (CIRP), which primarily 
serves OLE/FAMS Field Operations, offers organization-wide support 
services in response to any critical incident such as line of duty 
exposure to traumatic events. CIRP provides assistance to OLE/FAMS 
employees and their families in times of personal or professional 
crisis and helps employees meet life's challenges in an effort to 
remain healthy, engaged, and productive. This branch will also liaise 
and collaborate with TWE on delivery of OLE/FAMS-focused training 
products and oversee the provision/compliance of FAMs' recurrent 
training for headquarters operational personnel.
    The Law Enforcement Information Coordination Section (LECS), 
formerly known as the Information Coordination Division, has become 
more significant given its increasing TSA duties, particularly as it 
assumes the role of primary Federal Bureau of Investigation operational 
contact.
    The transformation of OLE/FAMS Field Office management is designed 
to be consistent with other TSA operational components and to permit 
future smooth transitions in the field. OLE/FAMS Field Office Branch 
Chiefs will align congruently with the Office of Security Operations' 
(OSO) Regional Managers. This model will permit closer coordination 
between senior OLE/FAMS and OSO managers, which is expected to improve 
TSA operational performance and professional collaboration.
    The model also enables OLE/FAMS to pursue a ``field-centric'' 
approach allowing branch managers and staff to focus solely on 
supporting the field, and the management of offices/SACs. Moreover, a 
field-centric approach will also provide the time and space to consider 
issues of field office consolidation and/or right-sizing congruent with 
the FAMS Concept of Operations or emerging law enforcement trends/
challenges.
    In addition, the realignment will contribute to correcting the 
internal challenges noted in a January 2012 report by DHS's Office of 
the Inspector General (OIG), which investigated allegations of 
misconduct and illegal discrimination and retaliation in the FAMS. 
While the report found those allegations to be unfounded, the OIG did 
find that the FAMS suffered from a lack of management cohesion, 
negative workforce perceptions, and a lack of compliance with 
headquarters direction on matters of office operations and management 
philosophy. Changing the management structure and re-invigorating the 
focus of Field Operations addresses the OIG's concerns by laying the 
foundation for real, positive cultural change to our workforce. We 
welcome the OIG review and have worked closely with them throughout 
this process.
                               conclusion
    We believe the changes we are implementing will help strengthen our 
ability to provide comprehensive transportation security. They are 
designed to enable TSA to more efficiently and effectively execute our 
day-to-day operations and cultivate a strategic vision for our law 
enforcement programs while maximizing the flexibility needed to address 
unforeseen challenges and threats to the Nation's transportation 
systems.
    Chairman Rogers, Ranking Member Jackson Lee, we thank you for the 
opportunity to appear before you today. We look forward to answering 
your questions about the mission and operation of the Federal Air 
Marshal Service and the organizational changes that may result from the 
TSA transformation.

    Mr. Rogers. Thank you, Mr. Bray, for your testimony. We 
appreciate you being here today, and we know your time is 
valuable.
    Our next witness, Mr. Charles Edwards, is the acting 
Inspector General of the Department of Homeland Security, and 
no stranger to this committee. I am glad to have you back. Mr. 
Edwards assumed this position in February 2011. Previously, he 
served as Deputy Inspector General for the Department of 
Homeland Security. Mr. Edwards has over 20 years of experience 
in the Federal Government, and has held leadership positions at 
several Federal agencies, including TSA, the U.S. Postal 
Service Office of Inspector General, and the United States 
Postal Service. The Chair now recognizes the famous Charles 
Edwards.

  STATEMENT OF CHARLES K. EDWARDS, ACTING INSPECTOR GENERAL, 
    OFFICE OF THE INSPECTOR GENERAL, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Edwards. Good afternoon, Chairman Rogers, Ranking 
Member Jackson Lee, and distinguished Members of the 
subcommittee. Thank you for the opportunity to testify 
regarding allegations of misconduct, discrimination, and 
retaliation in the Federal Air Marshal Service, or FAMS. My 
office reviewed these allegations and published the results in 
a recent report titled ``Allegations of Misconduct and Illegal 
Discrimination and Retaliation in the Federal Air Marshal 
Service.''
    In early 2010, several Members of Congress reached out to 
my office requesting a review of FAMS after media reports 
surfaced regarding misconduct, illegal employment 
discrimination, and retaliation in the FAMS Orlando field 
office. Included within the media reports were descriptions of 
an agency rife with cronyism, age, gender, and racial 
discrimination; and unfair treatment in promotions, 
assignments, and discipline. In addition, there were 
troublesome photographs of a game board modeled after the 
television show Jeopardy. The game board was created and 
displayed by supervisors in the Orlando office, with categories 
using derogatory nicknames to refer to certain individuals' 
race, gender, and sexual orientation.
    My office agreed to undertake an inspection to evaluate 
these allegations. Our goal was to determine whether the facts 
confirmed the specific allegations about the conditions in the 
FAMS Orlando field office, and whether the alleged conditions 
existed Nation-wide. As part of a review, we looked at 
applicable laws, regulations, directives, policies, and 
procedures. Furthermore, we conducted more than 300 interviews 
of officials, as well as current and former FAMS personnel. 
Additionally, we performed site visits to FAMS field offices, 
including Orlando, and reviewed internal FAMS records.
    With respect to the Jeopardy game board, this incident was 
isolated in the Orlando field office, and was not the source of 
allegations in other offices. All three individuals responsible 
for the game board's creation are no longer with FAMS. Overall, 
we determined that although several employees experienced 
discrimination, a finding of wide-spread discrimination and 
retaliation within FAMS is not supported. Unfortunately, 
employees' perceptions of discrimination, retaliation, and 
favoritism are extensive. During our inspection, we identified 
many factors that contributed to strained relations and were 
the basis of allegations of management misconduct. For example, 
due to the nature of the agency's mission, FAMs have limited 
interaction with their supervisors. Evaluating FAMs based on 
such limited interaction is difficult, and may lead to 
disagreements. We noted inconsistency and the need for greater 
transparency and expediency in the agency's handling of 
employee misconduct.
    We also found that discipline was perceived as unfair, 
inconsistently applied, and not at the appropriate severity 
level for the offense, and used for retaliatory purposes. 
Several other unclear operational and administrative FAMS 
policies lead to employees' negative perceptions. As part of 
our inspection, we also conducted a survey of the FAMS 
workforce. Approximately 50 percent of the workforce responded. 
The survey results echoed what we observed during our site 
visits. One quarter of respondents feel that they have been 
discriminated against, 47 percent feel retaliation, and 55 
percent feel favoritism is tolerated. The survey also revealed 
that most, but not all, supervisors disagree with the non-
supervisory Federal Air Marshals' perception of these issues.
    As concerning as these issues are, they do not appear to 
have compromised the FAMS mission. Despite the concerns 
expressed in field offices, 76 percent of survey respondents 
either agreed or strongly agreed that the people they worked 
with cooperate to get the job done. Nonetheless, these 
allegations add unnecessary distraction at all levels at a time 
when mission tempo is high and many in the agency are becoming 
increasingly concerned about workforce burnout and fatigue. 
Thus, our report included 12 recommendations to help mitigate 
these issues. These include identifying other means to evaluate 
FAMS performance, clarifying and enhancing administration of 
the discipline process, enhancing guidance for ground-based 
assignments. We would like TSA to develop a strategy to address 
perceptions of discrimination, retaliation, and favoritism, as 
well as the workplace issues identified in our survey.
    While TSA and FAMS leadership are committed to addressing 
these issues, and have implemented several proactive 
initiatives, we will continue to work with TSA and the 
Department to identify ways to strengthen communication and 
increase transparency within the Federal Air Marshal Service.
    Mr. Chairman, this concludes my prepared remarks, and I 
would be happy to answer any questions that you or other 
members may have.
    [The prepared statement of Mr. Edwards follows:]
                Prepared Statement of Charles K. Edwards
                           February 16, 2012
    Good afternoon Chairman Rogers, Congresswoman Jackson Lee and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to testify on allegations of misconduct and illegal 
discrimination and retaliation in the Transportation Security 
Administration's (TSA) Federal Air Marshal Service (FAMS).
    In January 2010, CNN reported allegations of misconduct and illegal 
employment discrimination and retaliation in the FAMS Orlando field 
office. The reports described an agency rife with cronyism; age, 
gender, and racial discrimination; and unfair treatment in promotions, 
assignments, and discipline. Also included were photographs of a game 
board modeled after the television show ``Jeopardy!'' created and 
displayed by supervisors there, with categories containing derogatory 
nicknames referring to veterans, females, African-Americans, Hispanics, 
and lesbians and gays. We reviewed the allegations in Orlando and 
throughout the agency as well as the circumstances surrounding the game 
board.
    In January 2012, we issued an inspection report, Allegations of 
Misconduct and Illegal Discrimination and Retaliation in the Federal 
Air Marshal Service (OIG-12-28). The purpose of our review was to 
evaluate allegations of misconduct and illegal discrimination and 
retaliation in FAMS. Our goal was to determine whether the facts 
confirmed the allegations in the FAMS Orlando field office and the 
extent to which the alleged conditions existed Nation-wide. We made 12 
recommendations to help TSA mitigate the issues we identified, 
strengthen communication, and increase transparency. It is important to 
point out that that these issues do not appear to have compromised the 
FAMS mission. TSA and FAMS senior leadership are committed to 
addressing these issues and have implemented several proactive 
initiatives.
    Although individual employees may have experienced discrimination 
or retaliation, our review does not support a finding of widespread 
discrimination and retaliation within FAMS. However, employees' 
perceptions of discrimination, retaliation, and favoritism are 
extensive, and we heard too many negative and conflicting accounts of 
events in certain locations to dismiss them. Tension and limited trust 
between non-supervisory and supervisory personnel, poor communication, 
and limited transparency are not only damaging morale, but also are at 
the center of fears of retaliation and perceptions that management is 
mistreating its workforce.
    Although we spent a great deal of time talking to non-supervisory 
Federal Air Marshals about their individual concerns or situations, we 
did not conduct investigations of their specific allegations against 
supervisors. Determining whether one employee retaliated or 
discriminated against another is a complex matter that may not be 
resolved until reviewed by the Equal Employment Opportunity Commission, 
the Merit Systems Protection Board, or a court of law. Beginning in the 
Orlando field office, we engaged FAMS employees at all levels and at 
multiple locations around the country to gain a better understanding of 
how the organization operates and obtain their insights into incidents 
that have fueled the allegations. One of our challenges was discerning 
the views of non-supervisory and supervisory Federal Air Marshals and 
FAMS' senior leadership.
    We assessed the circumstances surrounding the game board styled 
after the television game show ``Jeopardy!'' and the FAMS Orlando field 
office's response. The game board existed in Orlando only, and was not 
the source of allegations of retaliation and discrimination in other 
field offices. The game board was created by a Supervisory Federal Air 
Marshal, a Federal Air Marshal, and a civilian training officer in the 
training office. All three of these individuals have since left FAMS. A 
former Federal Air Marshal who photographed the game board while it 
hung in the training office did not show it to Members of Congress or 
the media until after FAMS removed him in December 2009. He said he 
drew a second game board, which contained more patently offensive 
categories, to help the Congressional staff better understand the 
original game board's categories. Images of both game boards were 
distributed to several Federal Air Marshals in Orlando and Tampa. The 
recreated game board generated outrage, anger, and sadness.
    We asked personnel in the Orlando field office how management 
responded to the situation. The Supervisory Air Marshal in Charge (SAC) 
and the Assistant Supervisory Air Marshals in Charge held a series of 
briefings describing the game board as an improper, sophomoric joke by 
training staff. Accounts of managers' attitudes while addressing the 
matter varied. Managers felt they had responded appropriately. Non-
supervisory Federal Air Marshals recalled being disappointed by the 
briefings because managers came across as insensitive for not 
expressing accountability, contrition, or appropriate outrage. While we 
were conducting our site visit, FAMS leadership met with the Orlando 
SAC at headquarters. In July 2010, the Orlando field office underwent 
some personnel changes. These included the SAC being reassigned to a 
position in headquarters. In August 2010, Director Bray met with the 
entire Orlando field office to address workforce issues. In January 
2011, the former Orlando SAC retired from FAMS.
    In the past several years, numerous workforce issues have 
undermined relationships between managers and Federal Air Marshals, 
created tension and mistrust within the work environment, and led to 
many complaints and allegations against managers. These issues spawned 
an ``us versus them'' mentality among non-managers, immediate managers, 
and senior managers. We noted different leadership styles and attitudes 
among managers and supervisors in the field offices we visited, but 
most acknowledged that relationships could be better and said they are 
trying to improve communication with the workforce to address these 
issues. At the same time, many Federal Air Marshals seemed unwilling or 
unable to adapt to changes or recognize that senior management has made 
efforts to address work-life issues brought to their attention. The 
inability of both supervisors and Federal Air Marshals to ``let go'' of 
past incidents that were previously addressed was a recurring theme 
during our review.
    We identified other numerous factors that contributed to strained 
relations and became the basis for many allegations of management 
misconduct. Due to the nature of the agency's mission, Federal Air 
Marshals have limited interaction with their supervisors. Evaluating 
Federal Air Marshals based on such limited interaction is difficult and 
may lead to disagreements. We noted inconsistency and the need for 
greater transparency and expediency in the agency's handling of 
employee misconduct. Discipline was perceived as unfair, inconsistently 
applied, not at the appropriate severity level for the offense, and as 
being used for retaliatory purposes. Everyone agreed the process takes 
too long. In addition, several other operational and administrative 
aspects of FAMS, such as how it administers ground-based assignments, 
promotions, and restriction from flying international missions, need 
more clarity.
    We also conducted a survey of the FAMS workforce. Approximately 50% 
of the workforce completed the survey. The survey results echoed what 
we observed during our site visits. One-quarter of respondents feel 
they have been discriminated against, 47% of respondents fear 
retaliation, and 55% believe favoritism is tolerated. The survey also 
revealed that most, but not all, supervisors disagree with non-
supervisory Federal Air Marshals' perceptions of these issues. Negative 
perceptions are also prevalent regarding discipline and favoritism, 
even among managers and respondents who do not believe they are victims 
of discrimination, retaliation, or unfavorable treatment. Employees who 
fear retaliation are also less likely to report misconduct or illegal 
activity.
    These issues do not appear to have compromised the FAMS mission. 
Despite the concerns expressed in field offices, 76% of survey 
respondents either agreed or strongly agreed that the people they work 
with cooperate to get the job done. However, these allegations add 
unnecessary distraction at all levels at a time when mission tempo is 
high and many in the agency are becoming increasingly concerned about 
workforce burnout and fatigue.
    Management has been addressing workforce issues for several years, 
and continues to address them. Initiatives include the creation of the 
SAC Advisory Council, FAMS Advisory Council, and several working 
groups. In addition, all-hands meetings were held to discuss and 
identify workplace issues, develop recommended courses of action, and 
designate committees to plan for implementation of the agreed course of 
action based on operational requirements. These initiatives have 
provided useful forums for increasing communication and collaboration 
between senior leadership and the workforce, particularly the field 
offices, and addressing workplace issues. To promote a common culture 
within FAMS and address the ``us versus them'' perceptions, the 
Director accepted and implemented many of the FAMS Advisory Council's 
recommendations. In addition, the Director met with headquarters 
personnel to discuss changing the cultural mindset at all levels of the 
organization from one of a top-down management structure to one of 
solving problems for Federal Air Marshals who protect flights worldwide 
every day.
    The report contained 12 recommendations aimed at strengthening 
communication, increasing transparency, and mitigating the issues 
identified in our review. TSA concurred with the recommendations. We 
recommended that TSA:
  <bullet> identify other means to obtain information on Federal Air 
        Marshals' performance that could assist supervisors when 
        preparing evaluations;
  <bullet> provide guidance regarding the types of incidents FAMS 
        should and should not report to the Office of Inspection in an 
        incident tracking report;
  <bullet> provide additional guidance and clarification regarding 
        employee ineligibility for favorable personnel actions when 
        there is a pending disciplinary matter that spans performance 
        cycles;
  <bullet> provide guidance and clarification regarding how long prior 
        corrective or discipline actions should be considered and for 
        which types of incidents;
  <bullet> develop a comprehensive system to track all stages of the 
        discipline process;
  <bullet> establish additional guidelines that set forth selection 
        criteria for Federal Air Marshal ground-based positions;
  <bullet> provide additional guidance and clarification for awards and 
        in-position increases, including whether they can be rotated 
        among staff and given to the same employee in back-to-back 
        years, and to what extent managers should consider discipline 
        issues;
  <bullet> evaluate whether FAMS should remove specific limits on the 
        number of Senior Federal Air Marshals allowed in each office 
        and establish eligibility criteria for designation as a Senior 
        Federal Air Marshal based on specific mission and length-of-
        service achievements, in addition to the performance 
        requirements already in place;
  <bullet> communicate specific application criteria to all J-band 
        promotion applicants at the beginning of each promotion cycle;
  <bullet> review evaluation and assessment procedures for the J-band 
        promotion process and revise as necessary to ensure that 
        certification lists contain the best qualified candidates;
  <bullet> develop guidelines to define when Federal Air Marshals can 
        be removed from international flight schedules, including what 
        performance and conduct issues can cause a Federal Air Marshal 
        to be removed and the duration of the restriction; and
  <bullet> create and implement an action plan to address workplace 
        issues identified in our survey.
    The Office of Inspector General looks forward to continuing to work 
with the Department to identify ways to strengthen communication and 
increase transparency through our audit and inspection work.
    Mr. Chairman, this concludes my prepared statement. Thank you for 
the opportunity to testify and I welcome any questions from you or 
Members of the subcommittee.

    Mr. Rogers. Great. I thank you. The Chair now recognizes 
himself for questions. I want to start, Mr. Bray, you know, 
everybody knows what the economic situation in this country is 
right now, and particularly the economic situation of this 
Government. We are broke. I was frankly pleased to see the 
budget number that the President tendered for Homeland overall, 
because it wasn't as bad as it could have been, and it wasn't 
nearly as bad as what we are dealing with in the Armed 
Services. I serve on the House Armed Services Committee. So 
thankful for what we have got. But having said that, we still 
have the reality of budgets being tight for a while.
    So in thinking forward about what we are going to be 
dealing with, I look at your organization, and you are right at 
$1 billion right now. That is a huge amount of money. Can you 
point to one or two things that you are proud of that have been 
cost-saving measures that you have taken recently, let's say, 
in the last year?
    Mr. Bray. Sir, I think we have many cost-saving measures I 
can point to. The ones that I speak about are associated with 
many different things that we look at throughout the years as 
being more efficient and trying to provide as effective a layer 
of security that we can. We always work, we have all of our 
employees--the vast majority of our costs when we travel is for 
the cost of the hotels.
    So we work with both the GSA and our own people to try to 
bring down those costs. We are always studying the costs of the 
hotels when our people have to stay overnight or when they 
travel overseas. Obviously, a significant portion of our costs 
involve when we travel overseas. So we focus on that on a very 
regular basis. I have weekly meetings with our budget staff to 
look at our costs. If you look at the model that we have for 
our organization, and you go to our field offices, we have a 
different model for our field offices as far as the overhead 
costs. Where we had one central training facility in each field 
office, we have decentralized training for our field offices. 
We have very few offices. We use the hoteling concept, where 
people share a cubicle--because obviously our FAMs, their job 
is to be in the air, not to be in the office except for on a 
very regular basis when they are training, or when they are in 
there for certain other administrative duties, or to meet with 
their supervisors on that infrequent basis when they are able 
to do that. So we try to save costs there. We are always 
looking for other ways to save costs.
    Mr. Rogers. What I would like to ask you, I know the 
President has asked you all to come up with proposals to cut 
your budget by a certain number next year or maybe the year 
after, I would like to ask that you provide for the committee a 
proposal that would show us--I know that my friend and 
colleague over here wants to give you a whole lot more people, 
and I may go along with her on that. I haven't decided. But 
just for our edification and to help us prepare for what may 
come. You know, next year, we may be the Defense Department, 
where we are being told to take a big hit. I would like for you 
all to tender a proposal to this committee showing that if you 
had to reduce 5 percent of your budget each year for the next 5 
years, this is what you have to give up. It would just force 
you to prioritize and say now we are doing this, we think it is 
important, we want to keep doing it, but if you take 5 percent 
of the money away, this is what is going to drop off.
    If you would do that for me, I would appreciate it. Can you 
tell me what kind of time frame would be reasonable? Because I 
don't want to put too much on you. Everybody is looking at each 
other: Who is going to do this?
    Mr. Bray. Sir, if it is agreeable with you, how about 30 
days? That would give us time to go through it.*
---------------------------------------------------------------------------
    * The information was retained in committee files.
---------------------------------------------------------------------------
    Mr. Rogers. That is fine. That is very fine. I appreciate 
that. As I talked about in my opening statement, the threat has 
changed significantly since 9/11 because terrorists have 
modified their tactics based on security measures we have put 
in place. To the extent that you can discuss this in an opening 
setting, what is FAMS doing to adapt to the evolving threat to 
stay ahead of the terrorists? For example, are air marshals 
prepared to deal with the threat of an IED? I will take that, 
Mr. Allison or Novak, whichever one of you all.
    Mr. Novak. I will take that. Yeah, that is something that 
we train for. So the way the training academy works is we train 
to general tenets, if you will, principles about how to conduct 
themselves on a plane. So you can take that from anything from 
an unruly passenger all the way up to an IED, if you will, on a 
passenger, or someone trying to take over the plane. So we do 
train to those things.
    Mr. Rogers. So what would you do if you had a suspected 
bomber on the plane? Let's say the Christmas day bomber, 
somebody tipped off to you they saw him going into the restroom 
and he had an explosive in his hand, whatever. Can you talk 
about that in open session?
    Mr. Novak. Not really. We don't like to discuss tactics. 
But we do have those scenarios, those very scenarios that you 
talk about.
    Mr. Rogers. Thank you. My time has expired. The Chair now 
recognizes the Ranking Member for any questions she may have.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I 
think, if you could, tell me what the President's budget, Mr. 
Bray, has submitted for your agency? What are the cuts from 
2012, fiscal year 2012?
    Mr. Bray. For 2012 the proposal from the President is--for 
2011 we received $927 million. The proposal is $966 million for 
2012.
    Ms. Jackson Lee. What did you receive in 2011? I didn't 
hear you. What did you receive?
    Mr. Bray. Our enacted appropriation in 2011 was $927 
million.
    Ms. Jackson Lee. Okay. You are now at?
    Mr. Bray. Nine hundred sixty-six million.
    Ms. Jackson Lee. Okay. So you went up, if I am hearing your 
numbers correctly.
    Mr. Bray. Yes, ma'am.
    Ms. Jackson Lee. Do you foresee--I think we can generally 
ask you for the numbers--do you foresee cuts in FAMs, working 
FAMs besides management?
    Mr. Bray. I think we would, yes, ma'am. Under the current 
proposal.
    Ms. Jackson Lee. I am not asking for any numbers. Let me 
move to the points that I made in my opening remarks. I think 
in 2009, you testified regarding two initiatives that were 
going to be implemented in fiscal year 2010 with the goal of 
improving FAMS workforce issues and morale. You called one 
program the FAM mentoring program, and you also referenced a 
promotion restructure as the Senior Federal Air Marshal title 
change across FAMS. Now, again our IG points to low workforce 
morale stemming from the Senior Federal Air Marshal program, as 
I can recollect from his testimony and report. Can you brief me 
as to why you believe this program seemingly has had an 
opposite effect, this introduction of the Senior Federal Air 
Marshal program?
    Mr. Bray. The purpose of the Senior Federal Air Marshal 
program is to recognize those flying FAMs who have served for a 
certain period of time and they have served well. It is a 
recognition of their effort and dedication and professionalism 
towards our Nation. There is no monetary sums to that. There is 
no other sums for promotion or anything else. It is just a 
recognition of their service. So we have a certain percentage 
of FAMs that are eligible for that. We are reviewing that. We 
have a FAM Advisory Council that has made some recommendations 
to us. We have worked with our supervisory advisory council. I 
believe in the very near future, we are going to make some 
changes to that program that I think are based on the 
recommendations from the FAM Advisory Council.
    Ms. Jackson Lee. Does it also take into consideration the 
comments made or the report made by the Inspector General?
    Mr. Bray. Yes, it does.
    Ms. Jackson Lee. Let me ask the Inspector General, you 
indicate in your testimony that you didn't seem to find the 
widespread discrimination and retaliation supported. Explain 
that to me. What methods did you use to determine that they 
were not supported? We are still getting emails indicating that 
people are still seemingly treated in a disparate manner.
    Mr. Edwards. Thank you, ma'am. We visited five sites. We 
conducted interviews from everybody who wanted to talk to us, 
either at the office or at an off-site. We also did a survey 
where 50 percent of FAMs from all demographics responded to the 
survey. The perception of discrimination was widely there. But 
when we looked at it, when we went out to do this inspection, 
we did not want to address individual complaints because there 
is a process for that. There is the Equal Employment 
Opportunity Commission, the MSPB, and also court of law.
    So a lot of these were already in litigation. So we looked 
to see, there was so much distrust between supervisory Federal 
Air Marshals and non-supervisory air marshals. However, we did 
not find a widespread discrimination.
    Ms. Jackson Lee. Which one of your recommendations points 
to trying to cure that problem?
    Mr. Edwards. If you look at recommendations 2 and 4----
    Ms. Jackson Lee. Of the 12?
    Mr. Edwards. And 12?
    Ms. Jackson Lee. No, I said of the 12?
    Mr. Edwards. Of the 12, 2 and 4 talks about the discipline 
process. And 10 talks about the promotion. People feel that 
there is not a fair process there. Then 12 we talk about an 
action plan for the survey.
    Ms. Jackson Lee. So you are suggesting this is what needs 
to be done, what needs to be implemented?
    Mr. Edwards. Right away, yes.
    Ms. Jackson Lee. Have you had any response back on your 
report from the agency?
    Mr. Edwards. Yes. They concurred. Recommendation 9 is 
already closed even before our report could be issued. So they 
are working with us.
    Ms. Jackson Lee. In your report, you include charts that 
isolate various workplace issues by office. One in particular 
happens to fall in the State of Texas. It seems that the Dallas 
office leads for workplace problems. Would it be possible for 
your office do an in-depth review of the Dallas office to 
determine what is going on in that office? If that was 
occurring in one or two other offices, which has come to our 
attention, would that be possible?
    Mr. Edwards. It is possible. But however, ma'am, I would 
like to point out that we spent nearly 1\1/2\ weeks in Dallas 
field office. We interviewed around 60 personnel, including 
managers, supervisors, and FAMs. We collected a lot of survey 
data. So we believe since we need to give time for FAMS 
leadership and for the recommendations to work its way through. 
I will be glad to look at the Dallas field office. Also they 
have new leadership there. So we want to give some time for 
that. Even the five sites we picked up, we looked at the MSPB 
data to see where the most complaints were. Of course, Dallas 
was one of them. But I feel that we need give some time for 
this recommendation to take effect.
    Ms. Jackson Lee. Let me close by, since I have a lot on 
this particular issue, let me ask, Mr. Bray--thank you very 
much, Mr. Edwards--I am looking at your diversity, I am looking 
at the participation of women. I see some progress has been 
made in the number of women working in FAMS. A lot of work 
remains to be done, particularly when it comes to the SES 
positions. For instance, there are only four women serving in 
SES positions. What I would just want to hear from you, Mr. 
Bray, is your outreach in recruiting women and minorities. Also 
in my H.R. 71, I talk about criminal investigative training, 
and how that would--how would you welcome that kind of training 
coming to FAMS?
    Mr. Bray. Thank you for the opportunity to respond to that. 
We have a very strong outreach to the diversity groups that we 
work with, whether it is the National Organization of Black Law 
Enforcement, the Women in Federal Law Enforcement. I would just 
like to say that the current active president for Women in 
Federal Law Enforcement is a Federal Air Marshal. We also work 
with them on diversity in recruiting. As I said, we have a very 
strong program to attend the conferences every year. I try to 
attend at least two or three conferences every year.
    We have senior leadership at every conference to put forth 
the word that we want to hire a diverse workforce and to 
maintain that workforce. As far as the criminal investigator 
training program, I believe it is essential that we continue to 
look at our training. As we see terrorism evolve, as we see 
them adapt and evolve, we--and I, it is incumbent upon me to 
make sure that my employees have the most forward-thinking and 
advanced training they can get as far as being able to respond. 
We all know that when FAMs are in the air, there is no chance 
of backup for them. So it is incumbent upon me to make sure 
they have the most advanced training we can. We work with 
Federal Law Enforcement Training Center on some of those 
initiatives.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentlelady. The Chair now 
recognizes the gentleman from Minnesota, Mr. Cravaack, for any 
questions he may have.
    Mr. Cravaack. Thank you, Mr. Chairman. Mr. Bray, thank you 
for your testimony today. One of the things, as a Federal 
Flight Deck Officer and an airline pilot for 17 years, one of 
the things that we learned after 9/11, you can't have a single 
point security check. It is a layered approach. It takes a lot 
of people to make sure that from when you initially buy your 
ticket to when you enter the aircraft there is all types of 
layers of security. In regards to, and I will try to say this 
very gently, yesterday we had Secretary Napolitano here, and 
she said the last line of defense was the cockpit door. In view 
of the layered security, how would you go about with the 
Secretary's comment? Would you like to redefine her remarks?
    Mr. Bray. I think I would like to say that----
    Mr. Cravaack. Or do you want to take a pass? Feel free.
    Mr. Bray. I think what I would say is I think it is very 
important that all the layers of security are strong and 
vibrant. I think as far as the FFDO program, they are an 
important layer of our security. I personally appreciate all 
the work and professionalism and dedication they have, and all 
the time they volunteer to help us in our very important role 
in aviation security.
    Mr. Cravaack. Did the Secretary ask you at all in regards 
to the budgetary cuts for FFDOs? Were you involved in that at 
all?
    Mr. Bray. We do have discussions. I had discussions through 
my chain of command about that, yes, sir.
    Mr. Cravaack. Okay. Can you give us an idea of who decided 
to cut the FFD program in half, basically?
    Mr. Bray. I don't have personal knowledge on that. But as 
was referred to earlier, we all have to make some very 
challenging decisions in the current economic climate and going 
forward. So we always make decisions based on the risk base and 
the intelligence that we receive.
    Mr. Cravaack. Sure. I understand risk-based. I understand 
that correctly. But I am assuming, and we won't talk numbers, 
but I am assuming that the numbers in regards to the budget, 
the number of FAMs are going to stay relatively the same. Would 
that be a correct statement or an incorrect statement?
    Mr. Bray. I think that is generally correct.
    Mr. Cravaack. Okay. A generally correct statement. Now, 
cutting the program in half, we have what, 29,000 flights a day 
I think, cutting that program in half with the same amount of 
FAMs, but basically cutting the program for FFDOs in half, that 
is going to leave a lot of open sky, in my opinion. I am just 
very concerned on especially one of the most efficient programs 
that I can see in the Federal Government. I think it costs $15 
for every flight to have an FFDO on in comparison to other 
flights.
    For example, FFDOs take their personal days off for 
training. They pay for their own lodging. They pay to go to 
training. I think it is one of the most efficient programs that 
we have, and provides one of the most essential last-ditch 
efforts. Plus, it is an extremely covert program. You are not 
going to be able to tell if there is an FFDO in that cockpit or 
not. It is one of the chief deterrents that I can see. They are 
seamless with the FAMs. The majority of people don't know FAMs 
are on board as well. It is very disconcerting to me to see 
that this program was cut in half. Quite frankly, it is peanuts 
in the overall spectrum of things, $23 million, they cut it 
down to $12 million.
    I think the other questions that I would have would 
probably be best suited for a more secure environment. But I 
just wanted to get your comments on do you think that with a 
cut in the program, the FFDOs right now, do you think it would 
affect our security overall?
    Mr. Bray. We are still examining the proposals. But what we 
hope to do with the proposed cuts is to really look at the 
overhead that we have in the program as far as some of the 
training support contracts we have and the requalification 
areas. We hope to look at some of the overhead we have within 
our program as far as the number of training sites, to cut that 
possibly, to really try do what we can to minimize the impact 
on the flying FFDOs. So we are looking at that first. So I 
would like to defer any further comment on that until we really 
study it.
    Mr. Cravaack. Unfortunately, as I understand it, there 
hasn't been any new FFDOs in the program for what, over a year 
now? Would that be a correct statement? They have not had a 
training class for over a year for new FFDOs.
    Mr. Allison. Mr. Congressman, I believe we were scheduled 
to have 200 or so FFDOs this year.
    Mr. Cravaack. How many?
    Mr. Allison. Two hundred or so.
    Mr. Cravaack. Two hundred? Okay. That would be new 
information for me then. Thank you very much. My time has 
expired. I will yield back negative time.
    Mr. Rogers. I thank the gentleman. I have just got a couple 
of more questions before we go into secure session. This is for 
Mr. Bray. As a result of TSA's transformation initiative, I 
understand that law enforcement officials had their titles 
changed from regional directors to branch managers, which is a 
title more common for a bank or an insurance company or 
whatever. You know, these are high-performing law enforcement, 
well-trained personnel. We have heard about the morale 
problems. Is this something you have been getting feedback on 
about this title? No problem at all?
    Mr. Bray. Sir, Mr. Chairman, I would respond to that by a 
couple years ago, based on some advice that--I guess it is 
about a year and a half ago now--based on advice from our FAM 
Advisory Council, I started changing the titles for some of our 
supervisors. Previously, they used to be called special agents 
in charge. That I think caused a gulf between the Federal Air 
Marshals and the supervisors. So now when I introduced the 
Supervisory Federal Air Marshals from Orlando and Dallas, they 
are now called Supervisory Federal Air Marshals. So we have 
been undertaking that initiative, that transformation for a 
while as far as changing of titles. I have not heard any 
feedback that that has affected anyone's morale in the 
leadership or in the organization.
    Mr. Rogers. Good. We have heard significant concern about 
the decision to merge FAMS training with the training of 
Transportation Security Officers, TSOs. The responsibilities of 
these two groups are very different. Notably, air marshals are 
law enforcement officials, whereas TSOs, who conduct passenger 
screening, are not law enforcement. What is your view on the 
decision to merge TSA's training programs, thereby shutting 
down separate FAMS' training operation? I guess that would be 
Mr. Novak?
    Mr. Novak. Yeah, I would be happy to talk about that. So 
what you are saying is correct. But when you look at it, there 
is actually a separate law enforcement division and a separate 
Transportation Security Officer division. So the training won't 
actually be the same.
    Mr. Rogers. The same training.
    Mr. Novak. Yeah. So the FAMS training center in Atlantic 
City will remain as such, and the FAMS will go there for their 
training. So nothing really will impact the way we train FAMS.
    Mr. Rogers. Okay. So you don't see that training suffering 
any?
    Mr. Novak. I don't.
    Mr. Rogers. Mr. Novak, you are the first person to assume 
the role of assistant administrator for the newly created 
Office of Training and Workforce Engagement. Why was the 
decision made to establish the new office?
    Mr. Novak. So, what I think when Mr. Pistole came in as the 
administrator from his previous time at the FBI, he looked at 
the organization, and there were actually training departments 
in different sections of the organization. It just brought out 
the obvious question, why would there be training departments 
in other programs? So effective, efficient, here we are about 
efficiency, is it better suited to move things together and 
combine forces?
    Mr. Rogers. So what are your responsibilities?
    Mr. Novak. My responsibilities are coordinating all the 
training that happens throughout the organization. So 
consolidating all those folks to make sure the messaging is the 
same--the training tactics are different, but the messaging for 
the organization is the same, and making sure--okay.
    Mr. Rogers. Mr. Edwards, you talked a little while ago 
about widespread perception problems. Even though your 
investigation didn't find the problems that were alleged, you 
said that there were extensive perception problems. Why do you 
think that is?
    Mr. Edwards. Well, based on the interviews, Chairman, and 
the survey responses, there is a perception because the non-
supervisory FAMs and the supervisory FAMs, they don't trust 
each other. There is also a perception that senior leadership 
doesn't hold supervisory FAMs accountable. So there is so much 
of mistrust. In terms of getting awards, there is no common 
criteria. Every office kind of determines it differently. When 
so little time is spent of a flying FAM with their supervisor, 
how are they going to measure their performance?
    So we recommend that TSA provide guidance on awards and 
promotions, even promoting getting promoted to a supervisory 
FAM. There needs to be transparency in the application process. 
You know, there should be some criteria. So we have made a 
number of changes, and FAMS leadership and TSA have accepted 
that.
    Mr. Rogers. Thank you very much. The Chair now recognizes 
the Ranking Member for any additional questions she may have.
    Ms. Jackson Lee. Chairman, your line of questioning raises 
several questions. Mr. Novak, the role that you play deals with 
training for all of the TSO personnel, including TSO officers?
    Mr. Novak. That is correct.
    Ms. Jackson Lee. So you coordinate for everyone, including 
FAMS?
    Mr. Novak. Correct.
    Ms. Jackson Lee. You have obviously structured training 
that differs from TSO officers to FAM officers. Is that 
correct?
    Mr. Novak. Correct.
    Ms. Jackson Lee. In your training, are supervisors involved 
in the training?
    Mr. Novak. It is funny you mentioned that. I am actually 
preparing a course for supervisory TSOs. There is supervisory 
training right now. But one of the things that I have heard has 
been that our supervisor training for TSOs could be better. So 
I have looked at it. I just came into existence January 1 of 
this year. But I have had a meeting yesterday for 2 hours with 
the group that is reviewing all that. I am going to release 
something in the next couple months that will be a 2-week 
program that will hopefully give them the fundamentals that 
they need.
    Ms. Jackson Lee. So for FAMS, do you include FAM 
supervisors in as well as the FAM officers for training?
    Mr. Novak. Yes. There is a supervisory course that we 
introduced probably a year-and-a-half ago for FAM supervisors. 
It touches on a lot of the same things that I am going to 
incorporate into the TSO training.
    Ms. Jackson Lee. I think you have a wide purview. So how 
are you going to really answer the question? I probably 
disagree with my very fine Inspector General. I think the 
report on its face is a very good report. But you cannot have 
perception, widespread perception without reality. Somebody is 
feeling, and there is the reality of discrimination or lack of 
communication between supervisors and the line officers. What 
are you going to do about that?
    Mr. Novak. So I will----
    Ms. Jackson Lee. Because you are in the training and 
professional development.
    Mr. Novak. That is right. So I can offer more training. But 
what we have done is, as I mentioned earlier, this supervisor 
course that Director Bray implemented is really a great start. 
Now, that was implemented while the Inspector General was doing 
their review. So I think we are turning the tide. We are 
talking about having our folks make sure that our FAMs succeed. 
We are giving them every opportunity to succeed.
    Ms. Jackson Lee. What did you say Mr. Bray had that you 
thought was working?
    Mr. Novak. We introduced a supervisory training course.
    Ms. Jackson Lee. Is that talking to them about 
communicating and working with the line officers? So what is 
your mode for assessment? What is your audit to determine that 
it works?
    Mr. Novak. Well, that will be surveys like this in the 
future. But there is an assessment actually that the 
supervisors take to review what they think their skills are.
    Ms. Jackson Lee. Can I ask you then to be part of--
obviously, I don't run your shop, but can I have you see the 
connection? If you are training and trying to break through on 
some of the issues that Mr. Edwards has commented on, you need 
to see whether your training is working, whether people are 
learning to work together, whether there are barriers, or the 
walls of discrimination that are perceived through your 
training can be broken down.
    Mr. Novak. That is true.
    Ms. Jackson Lee. So I would like to, as I said, the 
Chairman has given you a request, I note it was 30 days, but I 
would like to get a report back on what impact or what are the 
results of the training on one of the major elements of the 
Inspector General's report, and whether or not you are crafting 
training to improve the diversity relationships. Whether or not 
you have training that allows or says supervisors can supervise 
people from all backgrounds. Which is obviously you can put it 
in the terms of the structure of your training. I would like 
that report back.
    Mr. Novak. Very well. Thank you.
    Ms. Jackson Lee. Mr. Allison, you are under law 
enforcement. Would criminal investigation training be helpful 
to your FAMs?
    Mr. Allison. Yes, Ms. Jackson Lee, I believe it is, or 
would be. I was actually hired as a Federal Air Marshal back in 
1998 out of the military. I actually attended the criminal 
investigator training program. There are a number of lesson 
plans and training attributes there that we believe would be 
beneficial to our workforce.
    Ms. Jackson Lee. What is your perception of the need for 
breaking what people perceive to be discriminatory treatment?
    Mr. Allison. I actually think what Mr. Edwards outlined is 
right on the money. Clearly, we need to improve our sense of 
team as an organization. The way we operate and the infrequency 
of contact between the management and the FAMS that are flying, 
it is just human nature that unfamiliarity breeds mistrust. So 
we certainly need to bridge the divide where it comes to the 
communication aspects. We need to invoke and mandate more 
transparency on our policies and procedures with respect to the 
issues that are on the minds of the flying Federal Air 
Marshals. Also more consistency in our field offices.
    Ms. Jackson Lee. Are you recruiting--where are you mostly 
recruiting your officers from? Are they retired Federal law 
enforcement, or do they come from--are you going out in the 
field and finding--not to reflect on anyone that is retired, 
but are you looking in other places, colleges, for example?
    Mr. Allison. Yes, ma'am. I actually, a while back, did a 
recruiting trip at some HBCUs a number of years ago. But we 
have representatives across the offices in the field who are 
recruiters. They go to colleges. They make all folks aware of 
the announcements when they come out for the vacancies for the 
Federal Air Marshals. We also work very closely with the 
different law enforcement groups to actively recruit and give 
people experiences and sort of a look inside the organization 
to offer that as a venue for employment. I actually championed 
an effort recently with NOBLE for summer internship positions. 
They give opportunities for those who may not would have had 
them.
    Ms. Jackson Lee. Mr. Chairman, I am going to ask unanimous 
consent--thank you very much, Mr. Allison--to submit the 
Ranking Member of the full committee, Mr. Bennie G. Thompson's 
statement into the record.
    Mr. Rogers. Without objection, so ordered.
    [The statement of Mr. Thompson follows:]
        Prepared Statement of Ranking Member Bennie G. Thompson
                           February 16, 2012
    In July 2009, this committee's Subcommittee on Management, 
Investigation, and Oversight held a hearing on FAMS personnel issues. 
Director Bray was a witness at that hearing and will appear before this 
subcommittee today. At that hearing in 2009, Director Bray acknowledged 
that retaliation had been an on-going problem across FAMS. Director 
Bray promised to fix this problem. Clearly, no remedial action was 
taken.
    Today, 47% of FAMS believe that retaliation is part and parcel of 
the FAMS workplace. I am not a management expert. But I know that if 
half of your workforce will admit to believing something, the other 
half believe it but won't admit to it. So as we begin today's hearing, 
I need to focus on the practical ramifications of having 47% of your 
workforce believe that retaliation is a way of life.
    In the most recent report released by the Inspector General, he 
noted that many discrimination complaints had been filed. However, he 
also noted that the overwhelming majority of those complaints had been 
resolved in favor of the agency.
    I have no doubt that the Director and others will testify that 
these favorable resolutions mean that the agency is free of 
discrimination. Luckily, I was not born yesterday. I know that in order 
to win a discrimination complaint, there must be evidence and there 
must be witnesses.
    That gets me back to the 47% who fear retaliation. In an agency in 
which almost half of the employees fear retaliation, few will speak up. 
Few will testify. So few cases will be won by employees. Given these 
practical considerations, I do not believe that anyone should make 
proud assertions about a lack of discrimination at FAMS.
    Finally, Mr. Chairman, I want to be very clear. The flying FAMS 
have an exemplary record of protecting the flying public. But I must 
admit that it may be miraculous that their job performance has not been 
adversely affected by the dysfunctional environment of the FAMS field 
offices.
    So today, I want to take a moment to commend each flying FAM for 
the work they do. But we cannot continue to take this work for granted. 
How much longer are we willing to risk that the well-documented 
dysfunction of these offices does not affect the performance of the 
flying FAMS? As Members of this committee, we need to take a long and 
hard look at this agency and make leadership changes that will preserve 
and protect the safety of the flying public.

    Ms. Jackson Lee. I have likewise a question that I would 
like to submit into the record and ask, it will be of Mr. Bray, 
and I would specifically like a sooner rather than later, like 
an immediate response. It deals with the issue of FAMS and the 
hiring of numerous U.S. Secret Service retirees and their 
annuity. So it is a detailed question. I think it is 
appropriate for a detailed response. I ask unanimous consent to 
submit the question into the record in writing, but also to ask 
for an expeditious response, Mr. Chairman.
    Mr. Rogers. Without objection, so ordered.*
---------------------------------------------------------------------------
    * The information was not submitted at the time of publication.
---------------------------------------------------------------------------
    Thank the gentlelady. Mr. Allison, I am glad to hear you 
all are doing that. By the way, I have three HBCUs in my 
district. If you want to send some recruiters down to 
Talladega, Tuskegee, or Alabama State, I would appreciate it.
    Ms. Jackson Lee. You would do well to do so. Come on down 
to Texas Southern University.
    Mr. Rogers. Mr. Cravaack, do you have one more question 
before we go to closed session?
    Mr. Cravaack. Yeah. If you don't mind, I would like to 
follow up. Minnesota, good central work ethic. I just want to 
let you know about those guys too. I had a question. It was 
alluded to, Mr. Allison kind of, was the discrimination 
basically between the front line troops and supervisory? Is 
that where I am seeing--or not discrimination, but distrust? Is 
that what we are seeing or----
    Mr. Allison. Yes, Mr. Congressman. The Federal Air Marshals 
who are in the field offices flying the missions every day, and 
then the first-line supervisors who are the--principally, the 
first-line supervisors.
    Mr. Cravaack. I can understand that, because, you know, 
usually FAMS are haze gray and underway. I mean, they are gone 
constantly. They have to introduce themselves to their family 
every now and then. So, you know, they have about as many 
flight hours as a pilot. I understand that. So I think I heard 
that. So it is from the front-line troops, the distrust from 
front-line troops basically to the head shed.
    Mr. Allison. To some degree, yes, sir.
    Mr. Cravaack. Okay. Great. Thank you. I appreciate that. I 
yield back.
    Mr. Rogers. I thank the gentleman. In discussion with our 
witnesses, we have agreed that the remainder of this discussion 
is very sensitive in nature. The information to be discussed, 
if it were disclosed, could endanger National security or 
compromise sensitive law enforcement information. Therefore, I 
consulted with the Ranking Member, and we are in agreement that 
the remainder of today's hearing should be conducted in closed, 
classified session.
    Pursuant to rule 11 clause 2(g)2 of the U.S. House of 
Representatives, I ask unanimous consent that the remainder of 
the hearing be closed to the public. Hearing no objection, we 
will now recess and go down to the SCIF. By the way, I have a 
hard stop at 4 o'clock. So if we could walk quickly, I would 
appreciate it.
    [Whereupon, at 3:20 p.m., the subcommittee proceeded in 
closed session.]

                                 <all>

</pre></body></html>
